                      U.S. Department of Agriculture

                         Office of Inspector General
                                  Southwest Region




          Audit Report

        Farm Service Agency
Payment Limitation Review in Louisiana




                            Report No. 03099-181-Te
                                          May 2008
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL
                                          Southwest Region
                                      101 South Main, Suite 324
                                         Temple, Texas 76501
                                TEL: 254-743-6565 / FAX: 254-298-1373


May 8, 2008



REPLY TO
ATTN OF:      03099-181-Te

TO:           Willie F. Cooper
              State Executive Director
              Farm Service Agency
              Alexandria, Louisiana

FROM:         Timothy R. Milliken /s/ Billy R. Engelke for
              Regional Inspector General for Audit

SUBJECT:      Farm Service Agency Payment Limitation Review in Louisiana


This report presents the results of our audit of the Farm Service Agency Payment Limitation
Review in Louisiana. Your written response to the draft report is included as exhibit F, with
excerpts, and the Office of Inspector General’s (OIG) position incorporated into the relevant
sections of the report.

Based on the response, management decisions were reached for Recommendations 1, 3, and 4.
Documentation and/or actions needed to reach management decision for Recommendation 2 are
described in the OIG Position section of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation for
those recommendations for which management decision has not been reached. Please note that
the regulation requires final action be taken within 1 year of each management decision to
preclude being listed in the Department’s annual Performance and Accountability Report.

We appreciate your timely response and the courtesies and cooperation extended to us by
members of your staff during the audit.
Executive Summary
Farm Service Agency Payment Limitation Review in Louisiana (Audit Report No.
03099-181-Te)

Results in Brief   A limitation on the total annual payments that a “person” may receive under
                   agricultural programs has been in effect since the enactment of the
                   Agricultural Act of 1970. “Persons” may be individuals or forms of business
                   organizations, known as “entities.” For an individual or entity to be
                   considered a separate “person,” the individual or entity must have a separate
                   and distinct interest in the land or crop involved, exercise separate
                   responsibility for this interest, and maintain funds or accounts separate from
                   that of any other individual or entity for this interest.

                   The Louisiana State Farm Service Agency (FSA) office requested that the
                   Office of Inspector General (OIG) initiate an audit of partnership B’s financial
                   records and farming operations. The request was based on concerns identified
                   during FSA’s end-of-year review of partnership B’s 2000 crop year
                   operations. Based on the findings from its review, the agency was concerned
                   that funds were not being maintained separately between partnership B and
                   partnership A. Therefore, we included partnership A in our review because the
                   two partnerships were so intertwined that it was virtually impossible to
                   analyze one operation without reviewing the other. We reviewed crop years
                   2000 through 2002 for both partnerships, and the applicable FSA program
                   payments received in Franklin and Catahoula Parishes, Louisiana.

                   For crop years 2000 through 2002, each partnership contained six members
                   for a total of 12 “persons” for payment limitation purposes. Each partnership
                   is comprised of three individual partners and three corporate partners. All six
                   individual partners are related, and the same individuals make up the mixture
                   of 50-percent stockholders in the six corporations, thus providing each
                   individual with three permitted entities. All of the individuals were related
                   (see exhibit B). Individual A, a medical doctor, was an individual partner in
                   partnership B and a stockholder in two of partnership B’s corporate partners.
                   In addition, individual A was the authorized agent for both partnerships, and
                   owns most of the equipment used to operate the farms leased by both
                   partnerships (90 percent of partnership A’s equipment and 70 percent of
                   partnership B’s equipment is leased from individual A). The partnerships
                   received over $1.4 million in program payments for crop years 2000 through
                   2002.

                   We determined that the two partnerships were not separate and distinct for
                   payment limitation purposes because they did not maintain funds and accounts
                   separate from each other, and the members did not exercise separate
                   responsibility for their interests. Basically, the two partnerships were

USDA/OIG-A/03099-181-Te                                                                    Page i
                                        May 2008
                                    operating as one farming operation to conceal the true interest of individual A.
                                    Specifically, the same equipment was shared by the partnerships to conduct
                                    their farming operations, funds were shifted between the partnerships and
                                    individual A as deemed necessary, and some operating expenses were not
                                    timely paid to individuals or entities with direct or indirect interests in the
                                    partnerships’ farming operations, or were not proportionately shared between
                                    the partnerships when compared to the crops and numbers of acres worked.
                                    We concluded that these were not the actions of separate operations that take
                                    responsibility for expenditures in the year they are due, and that maintain
                                    separate funds and accounts.

                                    The farming operations have had a history of improper actions prior to this
                                    review. FSA performed an end-of-year review on partnership A for the
                                    1998 crop year. The agency determined that partnership A (1) did not
                                    maintain funds or accounts separate from partnership B, (2) did not provide a
                                    significant contribution of capital, land, or equipment, and (3) did not meet the
                                    cash rent tenant provisions. Based on this determination, partnership A was
                                    ineligible for all 1998 program payments. FSA’s report also pointed out that
                                    partnership A (after being out of farming in 1997) was brought back into
                                    farming in 1998 when partnership B increased the size (acres) of its farming
                                    operation, and partnership B’s program payments from the increased land
                                    would have exceeded the payment limitations for the six persons of
                                    partnership B. Also, OIG's Investigations staff issued a report 1 on
                                    partnership A that determined the partnership concealed some of its 1998 crop
                                    year production in order to qualify for disaster payments and an emergency
                                    loan totaling $477,792. The investigating agent was told by individual B
                                    (individual A’s brother) that the investigator needed to talk to individual A
                                    about the case because individual B had not had anything to do with the farm
                                    for years except to sign his name to papers to help his brother keep the farm
                                    going. Individual B and individual C (father to individuals A and B) are
                                    individual members and 50-percent shareholders in two of the corporate
                                    partners of partnership A that was investigated. This case is still under
                                    consideration for prosecution by the Assistant U.S. Attorney.

Recommendations
In Brief
                                    We recommend that the Louisiana State FSA office determine whether a
                                    scheme or device was adopted to evade the 2000 through 2002 payment
                                    limitation provisions, and, if so determined, collect program payments totaling
                                    over $1.4 million 2 from the two partnerships. If the State office determines a
                                    scheme was not adopted, we recommend that the State office determine



1
    Report of Investigation [   ], dated January 29, 2003.
2
    See exhibit E.

USDA/OIG-A/03099-181-Te                                                                                     Page ii
                                                             May 2008
                  whether the 12 members of the two partnerships should be combined to be
                  one “person” for payment limitation purposes, and collect payments
                  applicable to each of the 3 years that exceed the amount allowed
                  one “person.”

Agency Response
                  A letter from the Louisiana State Executive Director dated April 28, 2008,
                  stated that the Louisiana State FSA Committee, at its meeting on
                  April 9, 2008, reviewed the subject audit and concurred with the findings. The
                  committee determined that the members of partnerships A and B did not meet
                  the procedural requirements to be recognized as persons for 2000 through
                  2002. Also, the State committee determined that the members of partnerships
                  A and B adopted and participated in a scheme or device designed to evade the
                  rules of payment limitation and payment eligibility for the years 2000 through
                  2002. A decision letter will be issued within 30 days and the collection process
                  will be initiated.

OIG Position
                  We agree with the action taken by the Louisiana State FSA Committee. To
                  reach management decision, we need a copy of the bill for collection for
                  amounts owed to the Government and support that the amounts have been
                  entered as a receivable on FSA’s accounting records. If final action occurred,
                  evidence of collection would suffice.




USDA/OIG-A/03099-181-Te                                                                 Page iii
                                       May 2008
Abbreviations Used in This Report


CFR         Code of Federal Regulations
CPA         Certified Public Accountant
FSA         Farm Service Agency
OIG         Office of Inspector General
PFC         Production Flexibility Contract




USDA/OIG-A/03099-181-Te                              Page iv
                                          May 2008
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ iv

Background and Objective .......................................................................................................... 1

Findings and Recommendations.................................................................................................. 6

    Section 1. Payment Limitation Provisions Violated – True Nature of Farming
                  Operation Concealed and Members Were Not Separate Persons............... 6

        Finding 1……. ...................................................................................................................... 6
                           Recommendation 1 .............................................................................. 13
                           Recommendation 2 .............................................................................. 13
                           Recommendation 3 .............................................................................. 14
                           Recommendation 4 .............................................................................. 14

Scope and Methodology.............................................................................................................. 15

Exhibit A – Summary of Monetary Results ............................................................................. 17
Exhibit B – Members' Shares of Partnerships and Their Familial Relationships to
             Individual A ........................................................................................................... 18
Exhibit C - Comparison of Identified Farming Expenses in Relation to Acres Worked ..... 19
Exhibit D – Payroll/Labor Expenses ......................................................................................... 20
Exhibit E – Program Years 2000 Through 2002 Program Payments Subject to
             Limitations for Partnerships A and B ................................................................. 21
Exhibit F – Agency Response..................................................................................................... 22




USDA/OIG-A/03099-181-Te                                                                                                                   Page v
                                                                 May 2008
Background and Objective
     Background
                    The Louisiana State Farm Service Agency (FSA) office conducted an
                    end-of-year review for crop year 2000 on partnership B and identified
                    evidence of possible payment limitation violations. The agency was
                    concerned that funds were not being maintained separately between
                    partnership B and partnership A. Because of these concerns, the State office
                    requested that the Office of Inspector General (OIG) perform a review of
                    partnerships B’s financial records and farming operations to determine the
                    extent of payment limitation rule violations. OIG included partnership A in
                    the review because the two partnerships were so intertwined that it was
                    virtually impossible to analyze one operation without reviewing the other.

                    A limitation on the total annual payments that a “person” may receive under
                    agricultural programs has been in effect since enactment of the Agricultural
                    Act of 1970. Subsequent legislation, including the Food Security Act of
                    1985; the Omnibus Budget Reconciliation Act of 1987; and the Food,
                    Agricultural, Conservation, and Trade Act of 1990 modified the provisions
                    that define a “person” and the rules for payment limitation and payment
                    eligibility.

                    “Persons” are the units to which payment limitations currently apply. Persons
                    may be human beings (individuals) or forms of business organizations,
                    known as “entities.” For an individual or entity to be considered a separate
                    “person,” the individual or entity must have a separate and distinct interest in
                    the land or crop involved, exercise separate responsibility for this interest,
                    and maintain funds or accounts separate from that of any other individual or
                    entity for this interest.

                    The Federal Agriculture Improvement and Reform Act of 1996 amended the
                    provisions of the Food Security Act of 1985 to:

                          •   provide a $40,000 limitation per fiscal year on the total payments
                              made to a person under one or more production flexibility
                              contracts (PFC);
                          •   provide a $50,000 limitation on the total payments made to a person
                              under one or more PFCs (this limitation applies to the 7-year life of
                              the contract);
                          •   provide a $75,000 limitation on the amount of marketing loan gains
                              and loan deficiency payments a person may receive; and
                          •   apply the payment limitation and payment eligibility requirements
                              and restrictions of the 1985 Act to payments made under a PFC,
                              marketing loan gains, and loan deficiency payments.



USDA/OIG-A/03099-181-Te                                                                     Page 1
                                          May 2008
                    Most recently, the Farm Security and Rural Investment Act of 2002 amended
                    the provisions of the Food Security Act of 1985 to provide, in part, a
                    $40,000 limitation per crop year on the total direct payments and a
                    $65,000 limitation per crop year on the total counter-cyclical payments made
                    to a person under one or more direct and counter-cyclical program contracts
                    on covered commodities.

                    Current payment limitation administration has two major aspects: preventing
                    the use of multiple legal entities to avoid the effective application of the
                    payment limitations (payment recipients can receive payments through no
                    more than three entities) and making payments to only “active farmers”
                    (recipients must be “actively engaged in farming”). Types of business
                    organizations that reduce farmers’ risks, such as corporations or limited
                    partnerships, count as a single payment limit “person.” Types of
                    organizations where producers pool resources but are individually liable for
                    claims against the farm, such as general partnerships, can potentially have as
                    many payment limit “persons” as there are members. In addition, an
                    individual, as a sole proprietor or a member of a joint operation or a
                    partnership, may also receive payments from two other entities that may be
                    corporations or limited partnerships. As a result, the administration of
                    payment limits creates incentives for producers to organize their farms in
                    ways that would not occur in the absence of the payment limitations.

                    To be eligible for specified farm program payments, producers must be
                    “actively engaged in farming.” To be actively engaged, producers must
                    contribute time (labor or management) and capital (land or equipment or
                    operating expenses) to the farming operation. This actively engaged concept
                    is an effort to define who is truly a farmer. The actively engaged rule is
                    relaxed for share-rent landowners; they are considered to be actively
                    engaged. This provision benefits operators by facilitating the sharing of
                    production and marketing risks between operators and landowners.
                    Determining active management is very difficult, and lack of clear criteria
                    likely facilitates the creation of persons for payment limitation purposes.

                    A History of Improper Actions by the Partnerships

                    There have been other improper actions concerning these farming operations
                    prior to this review.

                    FSA’s Review of Partnership A:

                    FSA performed an end-of-year review on partnership A for the 1998 crop
                    year. Based on the facts from the review team and explanations from
                    individual A and the certified public accountant (CPA), the Franklin Parish
                    FSA office issued a letter dated November 20, 2001, to partnership A with
                    the following determinations:


USDA/OIG-A/03099-181-Te                                                                   Page 2
                                        May 2008
                     •    The members of partnership A did not have separate and distinct
                          interest in the land or crop involved, and did not maintain funds or
                          accounts separate from that of any other individual or entity for such
                          interest. Therefore, the members of partnership A are not considered
                          separate persons for payment limitation purposes.

                     •    Partnership A did not provide a significant contribution of land,
                          capital, or equipment; therefore, the members are not actively engaged
                          and were not at risk in farming.

                     •    Partnership A did not meet the cash rent tenant provisions.

                     •    Partnership A did not adopt or participate in adopting a scheme or
                          device designed to evade the payment limitation. There are some
                          indications of scheme and device in the summary of findings; however,
                          based on the review of the entire file, the committee determined the
                          partnership did not intentionally commit scheme and device.

                     •    Because of the above determination, partnership A is ineligible for all
                          1998 benefits and, therefore, owes a refund of all 1998 funds plus
                          applicable interest.

                  In a letter dated December 20, 2001, partnership A requested that the
                  committee reconsider its determination. In a letter dated March 8, 2002,
                  partnership A informed the Franklin Parish FSA office that it was withdrawing
                  its request for reconsideration regarding the determination of eligibility for the
                  1998 farm program year and requested to establish a repayment agreement and
                  pay in installments.

                  Basically, the review team found that, in reality, partnership B financed
                  partnership A throughout the crop year. Individual A and the CPA explained
                  that this occurred because, in the spring of 1998, partnership A, after not
                  farming in 1997, decided to farm again for 1998. This resulted in a delay in
                  loan approval for partnership A in 1998, and the CPA added that the firm was
                  using an accounting system that was sophisticated in its abilities to permit
                  separate accounting of farms with only one checking account. Therefore, due
                  to the time constraints of the late decision for partnership A to resume farming
                  for 1998, and the time delay of the loan approval, it was decided to continue
                  using the single checking account for the 1998 season. Further, the CPA told
                  the review team that prior to 1998 both partnership A and partnership B
                  maintained separate checking accounts and separate books. (Note: As shown
                  in the Findings and Recommendations section of this report, we found that the
                  partnerships still were not maintaining funds separate for crop years 2000
                  through 2002.) Also, the FSA review team found there was confusion
                  surrounding the designation of the PFC payments for a farm owned by
                  individual A. On June 5, 1998, shares were designated on the farm showing
                  partnership B receiving 100 percent of the PFC payments. On June 30, 1998,
USDA/OIG-A/03099-181-Te                                                                     Page 3
                                        May 2008
                  the shares were revised to show partnership A receiving 100 percent of the
                  PFC payments. The payments on this farm totaled $43,502 for 1998.
                  Individual A, partner in partnership B and acting as power of attorney for
                  partnerships A and B, made both of the designations. The review team
                  concluded that it appeared that, on both June 5, 1998, and June 30, 1998,
                  individual A would have known who was producing the crops on his farm.
                  Also, the team stated that it would appear individual A would have known that
                  partnership B, with six members, had total payment limitations of $240,000
                  (six members @ $40,000 each) and had reached $234,220 of this limitation on
                  the other 15 farms operated by partnership B. (Note: Our audit showed that if
                  partnership B would have continued to work the farm in question,
                  partnership B’s $43,502 payments on the farm would have been reduced by
                  $37,722 due to payment limitation [$240,000 limitation - $234,220 payments
                  on other farms = $5,780 remaining to claim]. Therefore, individual A brought
                  partnership A back into farming to receive the maximum eligible payments on
                  all the farms.) This supports our findings under Section 1 of this report.

                  OIG-Investigations’ Review of Partnership A:

                  Also, OIG-Investigations issued Report of Investigation [               ], dated
                  January 29, 2003, which concluded that partnership A made false statements
                  to FSA in connection with its 1998 disaster claim and received $477,792 in
                  benefits ($126,522 for disaster payments and a $351,270 emergency loan) to
                  which it was not entitled. The investigation disclosed that partnership A sold
                  45,000 hundredweight of rice for $345,135, produced in 1998, but never
                  reported the production to FSA. The failure to report this production enabled
                  the partnership to qualify for 1998 crop year disaster payments and a 1998
                  emergency loan. Further, to secure the loan, partnership A’s collateral
                  included a cotton gin and an airplane. Both of these items actually belonged to
                  individual A and were disposed of without applying the proceeds to the loan—
                  the airplane was destroyed in a storm and individual A received $25,000 in
                  insurance proceeds; individual A sold the gin equipment for over $100,000
                  and applied the proceeds to a personal loan. Individual A submitted all
                  necessary documents to FSA for the disaster and loan programs. Individual A
                  and his father (individual C, who is also a partner in partnership A) said they
                  were unaware the additional 45,000 hundredweight of rice had not been
                  reported to FSA. Individual C added that he did not own the gin equipment or
                  the airplane and did not know they were listed as collateral on the security
                  agreement for partnership A’s emergency loan. Individual A said he was
                  unaware the airplane was listed on the security agreement and, therefore, did
                  not report the $25,000 insurance settlement to FSA. Also, individual A said he
                  hired a farm manager in February 1998 to manage the production of the 1998
                  rice crop. However, the farm manager stated that individual A booked the rice
                  at the elevator and handled all of the business surrounding the sale of the rice.
                  The manager did not know in whose name the rice was sold, and he never
                  went to the elevator. Individual C stated that he did not remember how much
                  rice the partnership produced in 1998, and did not recall all the circumstances

USDA/OIG-A/03099-181-Te                                                                     Page 4
                                        May 2008
                   surrounding the $345,135 check for the unreported rice. He did not remember
                   if he physically picked up the check or if the check was received in the mail.
                   However, he did recall the check was made out to partnership A and the bank,
                   that he endorsed it, and the proceeds were applied against the outstanding loan
                   at the bank. In a conversation with the OIG investigator, individual B (also a
                   partner in partnership A and brother to individual A) referred the OIG
                   investigator to individual A about the issue because individual B had not had
                   anything to do with the farm for years except to sign his (individual B’s) name
                   to papers to help individual A keep the farm going.

Objective
                   The audit objective was to determine whether payment limitation provisions
                   were violated by partnership B and/or partnership A for crop years 2000
                   through 2002.




 USDA/OIG-A/03099-181-Te                                                                   Page 5
                                         May 2008
Findings and Recommendations
Section 1. Payment Limitation Provisions Violated – True Nature of Farming Operation
Concealed and Members Were Not Separate Persons

Finding 1
                   Partnership A and partnership B certified to FSA that they were separate
                   farming operations and received program payments in Franklin and Catahoula
                   Parishes. Each partnership is comprised of three individual partners and
                   three corporate partners. All six individual partners are related, and the same
                   individuals make up the mixture of 50-percent stockholders in the
                   six corporations (see exhibit B).

                   Individual A is an individual partner and 50-percent stockholder in two of the
                   corporate partners for partnership B and is the authorized agent for both
                   partnership A and partnership B. Documentation submitted to the Franklin
                   Parish FSA office, and certified to by the individuals involved, indicated that
                   the partnerships were separate farming operations. Based on this information,
                   the county office determined that each of the two partnerships was comprised
                   of six separate persons—thereby qualifying for 12 payment limitations and
                   enabling the partnerships to receive over $1.4 million in program payments for
                   crop years 2000 through 2002 (see exhibit E).

                   However, we found that the partnerships were not separate and distinct for
                   payment limitation purposes because they did not maintain separate funds and
                   accounts, and the members did not exercise separate responsibility for their
                   interests. We concluded that the two partnerships did not conduct their
                   operations as represented to FSA—that the partnerships operated as one
                   operation and were used to conceal the true interest of individual A. Farms
                   (and acres within these farms) leased by individual A and partnership B were
                   prorated through subleases to both partnerships in such a manner as to ensure
                   there were no reductions of program payments for payment limitation. For
                   2000-2002, partnership A reported it leased 90 percent of its equipment, and
                   partnership B reported it leased 70 percent of its equipment. Both partnerships
                   leased their equipment from individual A. When we compared the
                   partnerships’ equipment lists we found that the partnerships shared use of over
                   95 percent of the equipment items leased from individual A. In addition, both
                   partnerships hired 80 percent of their labor–the majority of which was paid to
                   corporate partner F, which is 50-percent owned by individual A. Also, records
                   showed that funds were shifted between the two partnerships, and between
                   individual A and the partnerships. Further, land leases were not always paid in
                   the year of responsibility, and some operating expenses were not
                   proportionally paid by each partnership in relation to the acres operated. We
                   believe these actions were not arm’s-length transactions for normal operations
                   where each individual/entity is separate and at risk for its respective financial
                   obligations.

USDA/OIG-A/03099-181-Te                                                                      Page 6
                                         May 2008
                                    Regulations 3 state that the following acts may be considered a scheme or
                                    device to evade the payment limitation provisions:

                                       •     concealing information that affects the application of the payment
                                             limitation provisions;

                                       •     submitting false or erroneous information; or

                                       •     creating fictitious entities for the purpose of concealing the interest of a
                                             person in a farming operation.

                                    Regulations 4 further state that for an individual or entity to be considered a
                                    separate person, the individual or entity must:

                                       •     have a separate and distinct interest in the land or crop involved;

                                       •     exercise separate responsibility for this interest; and

                                       •     maintain funds or accounts separate from that of any other individual or
                                             entity for this interest.

                                    We believe this case is another example of how producers, over the years,
                                    have evaded the payment limitation provisions by establishing partnerships, on
                                    paper, with unneeded individual and corporate partners in order to maximize
                                    the number of “persons” for payment limitation purposes. We say unneeded
                                    because, in this case, as in prior audit cases, one individual makes virtually all
                                    the decisions and, in the end, that person reaps the major benefits from the
                                    operations.

                                    From the records we were able to review, 5 listed below are various
                                    transactions that show the two partnerships were not separate and distinct and
                                    that each member was not at risk for its interest in the farming operations.

                                    Land Was Prorated Between Partnerships A and B to Maximize Program
                                    Benefits, and Partnership A Did Not Pay All Land Leases for 2000 and 2001

                                    Land leases were not properly reported to FSA for partnership A.
                                    Partnership A’s Farm Operating Plan for Payment Eligibility Review for a
                                    Joint Venture or General Partnership (form CCC-502B) filed with the county
                                    office showed that the partnership leased all the land directly from the owners.
                                    Individual A signed for all the members of partnership A on the 502U. Our
                                    review disclosed that all but one of the farms used in both operations were
                                    leased directly from the owners by partnership B (in which individual A is an

3
  Title 7, Code of Federal Regulations (CFR), section 1400.5.
4
  7 CFR 1400.3(b).
5
  See the Scope and Methodology section of the report for discussion of limitation to records and interviews.
USDA/OIG-A/03099-181-Te                                                                                            Page 7
                                                                      May 2008
                                      individual partner and shareholder in two corporate partners). The other farm
                                      was leased by individual A, then subleased to partnership B, who in turn
                                      subleased a portion of the land to partnership A. Partnership A had only one
                                      check paid directly to the owners of its leased land—the rest of its lease
                                      payments were for land subleased from partnership B. In some cases, the same
                                      fields were shared by both partnerships. We question this arrangement because
                                      it not only allows individual A to divide the land between the partnerships to
                                      ensure that all Government payments associated with the total acres are
                                      received without exceeding the payment limitation provisions—it sets up the
                                      possibility of shifting production to take advantage of disaster claims and
                                      emergency loans. 6

                                      Also, partnership A did not pay for all of its leased land in 2000 and 2001.
                                      Instead, the lease payments were established as accounts payable to
                                      partnership B. Specifically, partnership A did not pay lease payments of
                                      $55,948 in 2000 and $114,030 in 2001. These amounts were still included in
                                      its accounts payable balance of $184,248 to partnership B at the end of 2001.
                                      Therefore, partnership B financed partnership A for 2 years by not requiring
                                      partnership A to pay its lease in the years the payments were due. Also, these
                                      were not the actions of operations that are separate and distinct, and
                                      partnership A was not responsible for its interest in the operation. We could
                                      not determine if this continued in 2002 because we could not obtain the
                                      records for that year to perform the analysis. Despite our repeated requests for
                                      that year’s records, the producers and their representatives did not provide
                                      them. The attorney stated that the records had apparently been lost or
                                      misplaced while being moved to three different locations.

                                      The Same Essential Equipment Was Used to Work All Land by Both
                                      Partnerships A and B, and Partnership B Double-Paid Its 2001 Equipment
                                      Lease

                                      Partnership A did not own a tractor—only about 10 implements. Partnership B
                                      owned only three tractors (obtained in 1991 with a total value of under
                                      $6,000), but had more implements than did partnership A. On the farm
                                      operating plans submitted to FSA for the 1999-2002 crop years, partnership A
                                      listed that 90 percent of its equipment was leased, and partnership B listed that
                                      70 percent of its equipment was leased. Both partnerships had lease
                                      agreements for virtually the same equipment from individual A. Specifically,
                                      for 2000, we found that 164 of the 173 items individual A leased to
                                      partnership A were also leased to partnership B (i.e., individual A leased the
                                      same 164 single pieces of equipment to both partnership A and partnership B
                                      for the 2000 crop year). In essence, 95 percent of the leased farm equipment
                                      was leased by both partnerships, and the partnerships would have had to share
                                      control over use of that equipment throughout the crop year. The other nine
                                      items listed on partnership A’s equipment list, included two combines, two
                                      headers, and a grain drill, which seem reasonable since partnership A was the
6
    See “OIG Investigative Review of Partnership A” under the Background section of the report.
USDA/OIG-A/03099-181-Te                                                                                         Page 8
                                                                      May 2008
                  only partnership to grow grain sorghum in 2000. However, one of the
                  additional line items on partnership A’s list was described as “other
                  equipment” for a cost of $33,960—19 percent of the total lease amount of
                  $178,000. This seems odd since some other individual line items were listed
                  for less than $10.

                  For 2001, partnership A leased 169 equipment items, and partnership B leased
                  167 (99 percent) of the same items leased by partnership A. The two items
                  leased by partnership A, but not by partnership B, were a combine and a grain
                  drill. It would not seem reasonable for partnership A to lease the combine and
                  grain drill in 2001 because it did not grow any grain sorghum—both
                  partnerships reportedly grew only cotton for 2001. Also, “other equipment”
                  was still a line item on partnership A’s list, but had no charge as compared to
                  the $33,960 for the same line item in 2000.

                  In all, the lease amount for partnership A in 2001 was $149,578 and for
                  partnership B was $166,709. In 2000, partnership A paid $178,000 and
                  partnership B paid $210,000. The lease agreements were prepared as
                  stand-alone, yearly agreements with rates and terms established at the
                  inception of the lease and payment due at the end of the calendar year. This
                  type lease agreement would preclude the payment of rates based on actual
                  equipment use. The agreements did not indicate that these equipment items
                  were shared, nor did they explain how the cost to each partnership was
                  prorated (by the hour, day, acres worked, etc.). Also, we could not get an
                  explanation from the producers because we were denied interviews. We
                  question this arrangement under the rules of separate and distinct because, if
                  one partnership has the equipment leased, how can the other partnership (if
                  really a separate operation) lease and have control of the same equipment at
                  the same time?

                  Further, we found that partnership B paid its 2001 equipment lease of
                  $166,709 to individual A twice. Records show that on June 6, 2001,
                  partnership B paid individual A the $166,709 for the 2001 equipment lease,
                  and this amount was part of the total equipment expense reported on the
                  partnership’s 2001 tax return. Then, more than 1½ years later, on
                  December 30, 2002, another check was written to individual A for $166,709
                  with the notation that it was for the 2001 equipment lease. (The 2002
                  equipment lease of $170,000 had been paid to individual A on July 23, 2002,
                  and the $166,709 paid in December 2002 was not part of the total equipment
                  expense reported on the partnership’s 2002 tax return.) Without further
                  explanation from the partnership or individual A (see Scope and Methodology
                  section) we cannot determine the true nature of this payment to individual A.




USDA/OIG-A/03099-181-Te                                                                   Page 9
                                        May 2008
                                       Equipment Repair/Maintenance and Fuel Costs Were Not Commensurate
                                       Compared to the Acres Operated

                                       The partnerships’ equipment lease agreements with individual A stated that
                                       the partnerships were responsible for any repair/maintenance of the leased
                                       equipment. Since both partnerships leased the same equipment and worked
                                       approximately the same number of acres, the repair and maintenance costs
                                       should be similar. However, in 2000, partnership B paid $99,240 in
                                       repair/maintenance, while partnership A paid only $9,174. In 2001,
                                       partnership B had expenses of $114,468 for equipment repair, and
                                       partnership A had $3,686. We were not provided information as to which
                                       items of equipment were repaired; however, for the number of acres worked
                                       by both partnerships, these amounts are not proportionate. In 2000, partnership
                                       A operated 2,874.17 acres (1,026.27 cotton, and 1,847.9 grain sorghum), and
                                       partnership B operated 2,570.21 acres of cotton. In 2001, partnership A
                                       operated 2,307.9 acres of cotton, and partnership B operated 2,911.1 acres of
                                       cotton. Therefore, while each partnership operated about 50 percent of the
                                       acres, partnership B paid 92 percent and 97 percent of the repair/maintenance
                                       for 2000 and 2001, respectively (see exhibit C). We were not provided records
                                       sufficient to determine the equipment repair expenses of the partnerships for
                                       2002.

                                       Besides the large disparity in maintenance/repair cost between the two
                                       partnerships, there also was a large disparity in the partnerships’ fuel expenses
                                       when compared to acres operated. Although each partnership operated about
                                       the same number of acres, partnership B paid 76 percent of the partnerships’
                                       total fuel costs in 2000 and 87 percent in 2001 (see exhibit C).

                                       Partnerships Paid Labor Expenses Through Corporate Members

                                       Each partnership reported on its Farm Operating Plans for 1999-2002 that
                                       80 percent of its labor was hired; however, the partnerships generally did not
                                       directly pay the individuals who performed the labor. Instead, the partnerships
                                       each paid two of the corporate partners of partnership B for labor, and, for
                                       2000, partnership A also paid the third corporate partner of partnership B for
                                       labor, and partnership B paid (or reimbursed) partnership A for labor.
                                       (See exhibit D.) From the limited records of the partnerships, we determined
                                       that the majority of the partnerships’ labor expense payments went to
                                       corporation F of partnership B. (Individual A is a 50-percent stockholder of
                                       corporation F.) For example, the total labor expense for both partnerships in
                                       2000 was $211,690, of which at least 69 percent ($146,835) 7 was paid by the
                                       partnerships to corporation F. For 2001, corporation F was reimbursed for
                                       67 percent ($110,900) of the labor expenses totaling $165,770 for the two
                                       partnerships. Since individual A declined to talk with OIG, we could not
                                       determine why the labor expenses were handled in this manner. Despite our
                                       repeated requests, we were not provided access to the corporate records
7
    $174,300 paid directly to corporation F, less unspecified labor expense reductions totaling $27,465 = $146,835. (See also exhibit D.)
USDA/OIG-A/03099-181-Te                                                                                                                     Page 10
                                                                        May 2008
                  needed to determine the exact nature of the labor expense transactions between
                  the partnerships and the corporations (e.g., whether the payments by the
                  partnerships to the corporations matched the actual labor expenses paid by the
                  corporations). Also, sufficient records were not provided to determine the total
                  labor expenses for both partnerships in 2002; however, we did have enough
                  information to determine that partnership B continued to pay the corporations
                  for labor expenses, and that corporation F claimed the payments as farm
                  income resulting from custom hire on the Internal Revenue Service form Profit
                  or Loss From Farming (Schedule F). Of partnership B’s total labor expenses of
                  $103,621 reported on its 2002 tax return, 93 percent ($95,985) was paid to
                  corporation F.

                  Funds Shifted Between Partnerships A and B and Individual A as Needed

                  Partnership A's and B’s general ledgers showed that funds were loaned back
                  and forth between the partnerships and individual A. For example, in
                  January 2000 partnership A drew $250,000 on its 1999 operating loan, and
                  then, within the same month, loaned the same amount to partnership B.
                  Partnership B did not secure its financing from a bank until July 2000, well
                  into the crop year, and past planting season. Therefore, we conclude that
                  partnership A was financing partnership B for almost half the year.

                  Also, individual A had a 1999 carryover of notes payable to partnership A of
                  almost $388,000, and still had an outstanding balance of almost $375,000 at
                  the end of 2000, and over $198,000 at the end of 2001. Although we were not
                  provided any of partnership A’s accounting records for 2002, the 2002 bank
                  statements for partnership B showed that funds were still going back and forth
                  between the partnerships and individual A in 2002.

                  Further, even though partnership A had a net loss of $100,838 for 2000, it still
                  carried the notes receivable from individual A of almost $375,000. We
                  question whether the members of a true separate entity could afford to sustain
                  a loss while carrying a receivable of this amount for an individual outside its
                  partnership.

                  In addition, individual A, at the same time, was financing partnership B.
                  Partnership B’s general ledger showed that individual A had outstanding loans
                  to partnership B totaling over $389,000 at the beginning of 2000. We conclude
                  this is just another way that individual A is shifting all resources (money, land,
                  equipment, and labor) between the two partnerships as he sees fit (i.e.,
                  partnerships A and B and individual A are neither exercising separate
                  responsibility for their interests in the land or crops involved, nor maintaining
                  funds or accounts separate and distinct from one another). Further,
                  individual A’s balance of loans to partnership B was reduced to $5,109 by the
                  end of 2000, and reduced to zero by the end of 2001. Therefore, individual A
                  got his money back from partnership B, while his balance to partnership A
                  remained outstanding.
USDA/OIG-A/03099-181-Te                                                                    Page 11
                                        May 2008
                  Although each partnership did borrow funds from banks, there was numerous
                  other shifting of funds or unpaid obligations between the partnerships and
                  individual A through accounts receivable and accounts payable in addition to
                  those discussed above. When FSA performed its end-of-year review on
                  partnership A for the 1998 crop year, it found that partnership A did not
                  maintain separate funds from partnership B and was not at risk for certain
                  farming obligations. The CPA for both partnerships explained to the FSA
                  review team that 1998 was an unusual year in that partnership A came back
                  into farming in the spring of 1998 after not farming in 1997. Partnership A’s
                  late return to farming caused a delay in obtaining partnership A’s financing
                  (review team found that partnership B financed partnership A). Moreover,
                  according to FSA’s report concerning the 1998 end-of-year review, the
                  automated accounting system used by the CPA at that time permitted only the
                  separate accounting of farms with a common checking account. The CPA
                  assured the review team that, prior to 1998, both partnerships maintained
                  separate checking accounts and separate books (see Background section for
                  more details). We concluded that, for crop years 2000 through 2002, the
                  partnerships still were not maintaining separate funds and exercising separate
                  responsibilities for certain interests in the farming operations. We also noted
                  that both partnerships utilized individual A’s flying service for aerial
                  application in both 2000 and 2001, and hired individual A to perform custom
                  farming in 2000. These are avenues for funds to flow from both partnerships
                  to individual A.

                   Individual A Ran the Show—Used Partnerships A and B to Maximize Program
                   Payments

                  As shown in the Scope and Methodology section of the report, individual A
                  would not talk with OIG, and the attorney reported that additional records
                  requested by OIG were either lost or misplaced. The CPA who kept the
                  partnerships’ and individual A’s books for the period of our review would not
                  explain any of the transactions for the partnerships’ limited journals or
                  adjusting entries to which we were given access. Also, individual A’s attorney
                  withdrew as a go-between for OIG’s requests for records from individual A.
                  This was after we had been advised by the attorney that our requests for
                  information for either partnership should go to individual A, who was the
                  authorized agent for both partnerships. Therefore, we could not determine the
                  extent to which individual A benefited from these farming operations.
                  However, we believe the information presented above shows that this was
                  practically one operation, with individual A controlling the land, equipment,
                  labor, and funds to give the appearance that there were two separate and
                  distinct operations. This conclusion also is supported by prior findings
                  reported by FSA and OIG-Investigations (see “History of Improper Actions”
                  in Background section). For example, individual A’s brother, individual B
                  (individual partner and 50-percent owner of two corporate partners in
                  partnership A), told an OIG investigator that he had not had anything to do

USDA/OIG-A/03099-181-Te                                                                  Page 12
                                        May 2008
                   with the farm for years except to sign his name to papers to help his brother
                   (individual A) keep the farm going. Further, FSA stated in its end-of-year
                   review report that individual A added partnership A in 1998 (partnership had
                   not farmed in 1997) when he added additional acres and realized that the six
                   persons in partnership B would not cover all the program payments. (Again,
                   see FSA’s review of partnership A in Background section.) Therefore, we
                   conclude that these partnerships contained shell corporations and individuals
                   who were not truly actively engaged in farming in order to conceal the true
                   interest of individual A in the farming operation. Further, we conclude the
                   producers concealed information, and/or submitted false or erroneous
                   information that would have affected the application of the payment limitation
                   provisions.

Recommendation 1
                   Determine whether the producers adopted a scheme or device to evade
                   payment limitation provisions for crop years 2000 through 2002.

                   Agency Response.

                   The Louisiana State FSA Committee, at its meeting on April 9, 2008,
                   determined that the members of partnerships A and B adopted and participated
                   in a scheme or device designed to evade the rules of payment limitation and
                   payment eligibility for the years 2000 through 2002.

                   OIG Position.

                   We agree with the State Committee’s management decision.

Recommendation 2
                   If an adverse determination is made for Recommendation 1, collect program
                   payments subject to limitation for each year for which a scheme or device was
                   adopted and for the subsequent year. (The producers’ payments subject to
                   limitation totaled over $1.4 million for the 2000 through 2002 crop years. See
                   exhibit E.)

                   Agency Response

                   The Louisiana State FSA Committee will issue a decision letter within 30 days
                   and the collection process will be initiated.

                   OIG Position

                   We agree with planned action by the State Committee. To reach management
                   decision, we need a copy of the bill for collection for amounts owed to the
                   Government and support that the amounts have been entered as receivables on
                   FSA’s accounting records. If final action occurred, evidence of collection
                   would suffice.

USDA/OIG-A/03099-181-Te                                                                  Page 13
                                        May 2008
Recommendation 3
                   If an adverse scheme or device determination is not made under
                   Recommendation 1, determine whether the two partnerships and their
                   12 members should be combined to be one “person” for crop years 2000
                   through 2002 payment limitation purposes.

                   Agency Response.

                   In addition to determining that a scheme or device was adopted, the State
                   Committee also determined that the members of partnerships A and B did not
                   meet the procedural requirements to be recognized as persons for 2000
                   through 2002.

                   OIG Position.

                   We agree with the State Committee’s management decision.

Recommendation 4
                   For each year for which it is determined in Recommendation 3 that the two
                   partnerships and their members should be combined to be one “person,”
                   collect all program payments issued the combined producers in excess of the
                   amount allowed for one ”person.”

                   Agency Response.

                   The Louisiana State FSA Committee will issue a decision letter within
                   30 days, and the collection process will be initiated.

                   OIG Position.

                   We agree with the State Committee’s management decision. (Amounts owed
                   to the Government are included in the amount to be collected under
                   Recommendation 2.)




USDA/OIG-A/03099-181-Te                                                               Page 14
                                       May 2008
Scope and Methodology
                                    The scope of the review included the 2000 through 2002 crop year farming
                                    operations of partnerships A and B and related individuals (who had direct or
                                    indirect interests in the partnerships). The individuals had no other reported
                                    farming interests outside their direct and indirect interests in the two
                                    partnerships. Partnerships A and B received farm program payments in
                                    Franklin and Catahoula Parishes for crop years 2000 through 2002. Field work
                                    was performed from May 4, 2004, to February 2, 2008.

                                    To accomplish the audit objective, we reviewed payment limitation
                                    regulations, policies, and procedures. 8 We interviewed officials at the
                                    Louisiana State and Franklin Parish FSA offices. As applicable, we reviewed
                                    2000 through 2002 program records and farm operating plans for both
                                    partnership A and partnership B maintained by the Franklin Parish FSA. In
                                    addition, we reviewed the 1992 amended partnership agreements for both
                                    partnerships, the 2000 and 2001 depreciation schedules for equipment each
                                    partnership owned, and 2000 and 2001 equipment leases with individual A.
                                    The State office also provided partnership B’s land leases with various land
                                    owners; land subleases between partnership B and partnership A, applicable to
                                    the 2000 and 2001 crop years; and partnership B’s 2002 checking account
                                    records, to include monthly statements and cancelled checks.

                                    The former CPA for both partnerships provided the 2000 and 2001 Internal
                                    Revenue Service Form 1065, Return of Partnership Income, for both
                                    partnerships, and the Schedule K-1, Partner’s Share of Income, Credits,
                                    Deductions, etc., for each member of both partnerships. In addition, the CPA
                                    provided the 2000 and 2001 financial statements for both partnerships with
                                    supporting general ledgers, transaction registers, equipment depreciation
                                    schedules, and various worksheets detailing expenses and adjusting journal
                                    entries. Further, the CPA provided records pertaining to the 2000 and 2001
                                    operating loans with the bank for each partnership.

                                    Significant constraints were imposed on the audit approach by limitations on
                                    access to certain producer records and individuals. Specifically, our review
                                    was limited because additional documentation requested for both partnerships,
                                    through individual A’s attorney, was not provided. Also, we were unable to
                                    interview 9 the producers to obtain clarification on the available records we did
                                    obtain. The attorney stated that the records we requested had apparently been
                                    lost or misplaced while being moved to three different locations and referred
                                    us to the CPA. Although the CPA provided us what records he had, he said he

8
  7 CFR 1400 and FSA Handbook 1-PL (Revision 1).
9
  At a brief, unscheduled meeting with individual A at the county office (he happened to come in the office while the auditor was there), individual A
instructed the auditor to contact him for all questions concerning both partnerships since he was the authorized agent for both. After repeated attempts to
contact individual A, we spoke with his attorney who, in turn, instructed us to process all questions concerning the partnerships through him. The attorney
also advised individual A not to conduct interviews with OIG.
USDA/OIG-A/03099-181-Te                                                                                                                        Page 15
                                                                     May 2008
                  would not provide any explanations to our questions because he had recently
                  been sued by, and no longer worked for, individual A. Aside from the
                  Schedules K-1, we were not provided any accounting records for the
                  partnerships’ corporate members. Cumulatively, this lack of cooperation
                  limited our evaluation of the total financial transactions of the partnerships,
                  individuals, and corporate partners.

                  We conducted this performance audit in accordance with generally accepted
                  Government auditing standards. Those standards require that we plan and
                  perform the audit to obtain sufficient, appropriate evidence to provide a
                  reasonable basis for our findings and conclusions based on our audit objective.
                  We believe that the evidence obtained provides a reasonable basis for our
                  findings and conclusions based on our audit objective.




USDA/OIG-A/03099-181-Te                                                                  Page 16
                                        May 2008
     Exhibit A – Summary of Monetary Results
                                                                                                                          Exhibit A – Page 1 of 1




         FINDING           RECOMMENDATION
                                                                   DESCRIPTION                       AMOUNT                    CATEGORY
         NUMBER                NUMBER
                                                              Payment Limitation
                                                             Provisions Violated –
                                                                                                                              Questioned
                                                                True Nature of
                                                                                                                                Costs –
              1                          2                    Farming Operation
                                                                                                                               Recovery
                                                                Concealed and
                                                                                                   $1,432,622 10             Recommended
                                                              Members Were Not
                                                               Separate Persons
                        TOTAL MONETARY RESULTS                                                      $1,432,622




10
   The amount has been rounded to the nearest dollar and is relative to a determination of scheme or device. (See exhibit E for amounts questioned.) A
lesser amount will be recovered if the partnerships and their members are combined as one “person.” (See also Recommendation 4.)
USDA/OIG-A/03099-181-Te                                                                                                                   Page 17
                                                                   May 2008
Exhibit B – Members' Shares of Partnerships and Their Familial Relationships
to Individual A
                                                              Exhibit B– Page 1 of 1



     Partnership A:
            Individual C (Father)     16.67 percent
            Individual B (Brother)    16.67 percent
            Individual D (Cousin)     16.67 percent
            Corporation A             16.67 percent
                   Individual D              50 percent
                   Individual B              50 percent
            Corporation B             16.66 percent
                   Individual C              50 percent
                   Individual B              50 percent
            Corporation C             16.66 percent
                   Individual C              50 percent
                   Individual D              50 percent



     Partnership B:
            Individual A              16.67 percent
            Individual E (Uncle)      16.67 percent
            Individual F (Nephew)     16.67 percent
            Corporation D             16.67 percent
                   Individual A              50 percent
                   Individual E              50 percent
            Corporation E             16.66 percent
                   Individual E              50 percent
                   Individual F              50 percent
            Corporation F             16.66 percent
                   Individual A              50 percent
                   Individual F              50 percent




USDA/OIG-A/03099-181-Te                                                   Page 18
                                     May 2008
             Exhibit C - Comparison of Identified Farming Expenses in Relation to Acres
             Worked
                                                                                                                                           Exhibit C – Page 1 of 1




                                                         Equipment                Equipment
Program      Partnership         Acres        %         Leased from      %        Maintenance        %          Fuel       %          Labor       %       Fertilizer     %          Seed     %     Chemicals     %
  Year                            3/                    Individual A              and Repair
                                               1/                         1/                          1/                     1/                    1/                     1/                 1/                  1/
                                                             2/

              Partnership
                   B            2,570.21           47       $210,000       54           $ 99,240       92       $60,572       76     $133,690       63      $160,840       64     $110,965    59      $230,612    57
  2000
              Partnership
                   A            2,874.17           53       $178,000       46           $ 9,174            8    $19,167       24     $ 78,000       37      $ 90,906       36     $ 78,666    41      $170,912    43

          TOTAL                 5,444.38      100           $388,000     100            $108,414      100       $79,739     100      $211,690      100      $251,746      100     $189,631   100      $401,524   100

              Partnership
                   B            2,911.10           56       $166,709       53           $114,468       97       $36,019       87     $ 95,270       57      $111,500       68     $163,611    60      $204,277    51
  2001
              Partnership
                   A            2,307.90           44       $149,578       47           $ 3,686            3    $ 5,232       13     $ 70,500       43      $ 52,042       32     $108,101    40      $197,663    49

          TOTAL                 5,219.00      100           $316,287     100            $118,154      100       $41,251     100      $165,770      100      $163,542      100     $271,712   100      $401,940   100


   1/ Percentage of total for both partnerships.

   2/ Both partnerships lease virtually the same equipment from individual A.

   3/ Year 2000: partnership B – all acres were in cotton; partnership A – 1,026.27 acres of cotton and 1,847.9 acres of milo. Year 2001: all acres for both partnerships were in cotton.




           USDA/OIG-A/03099-181-Te                                                                                                                         Page 19
                                                                                 May 2008
 Exhibit D – Payroll/Labor Expenses
                                                                                                                               Exhibit D – Page 1 of 1



                                                      PROGRAM YEARS 2000 AND 2001 PAYROLL EXPENSE
                                                               FOR PARTNERSHIPS A AND B


                                                                                                     LABOR PAYEES
PROGRAM PARTNERSHIP Corporation Corporation                                                         Corporation Partnership Individual Various Reductions   Total
  YEAR                   F           E                                                                  D            A          A      Others
        Partnership A $ 68,500      $22,500                                                             $12,000                                 1/ $25,000 $ 78,000
   2000 Partnership B  $105,800     $ 6,000                                                                      2/ $20,000       $100  $4,255 3/ $ 2,465 $133,690
           Totals      $174,300     $28,500                                                             $12,000     $20,000       $100  $4,255     $27,465 $211,690

                       Partnership A                     $ 18,000                   $52,500                                                                      $ 70,500
      2001             Partnership B                     $ 92,900                   $ 2,000                                                              $ 370   $ 95,270
                          Totals                          $110,900                  $54,500                                                              $ 370   $165,770


1/ Journal entries reduced partnership A’s labor expense by $25,000.

2/ Partnership B paid partnership A $20,000, apparently to reimburse partnership A for labor payment. Unable to determine which
   corporation(s) partnership A had paid for partnership B’s labor.

3/ Partnership B initially classified legal and accounting expense totaling $465 as labor. Journal entry reduced labor expense $2,000.
   Unable to determine origin of $2,000 reduction.




USDA/OIG-A/03099-181-Te                                                                                                                    Page 20
                                                                      May 2008
Exhibit E – Program Years 2000 Through 2002 Program Payments Subject to
Limitations for Partnerships A and B
                                                                                                              Exhibit E – Page 1 of 1




       PROGRAM                    PARTNERSHIP                    PARTNERSHIP                               TOTAL
         YEAR*                          A                             B
          2000                        $182,167                       $599,573                          $ 781,740
          2001                        $192,892                       $315,233                          $ 508,125
          2002                        $ 58,773                       $ 83,984                          $ 142,757
        TOTAL                         $433,832                       $998,790                          $1,432,622

 * = Neither of the partnerships, nor the corporate members of either partnership, received program benefits in 2003. (Payments
 for program years 2000 through 2002 are rounded to nearest dollar.)




USDA/OIG-A/03099-181-Te                                                                                                     Page 21
                                                            May 2008
Exhibit F – Agency Response
                                         Exhibit F – Page 1 of 1




USDA/OIG-A/03099-181-Te                               Page 22
                              May 2008
